TruMark Financial Credit Union
335 Commerce Drive
Fort Washington, PA 19034

Credit Card Agreement
and Disclosure Statement

This is your Credit Card Agreement and Disclosure Statement. Please read it and keep it for your records. You do not
have to sign it. It automatically becomes effective once the card is used, or if you do not close the account within thirty
(30) days after the date of the letter to you indicating you were approved for the card. It sets out the terms for your use of a
TruMark Financial® Credit Union credit card. The combination of terms that could apply to you will differ depending on
the specific credit card offer and on your credit worthiness at the time of application. Not all offers will contain
introductory rates. Please refer to the Disclosure Table within this document for specific terms and rates for your card
type.

1. DEFINITION OF TERMS.
In this agreement the words “applicant” and “co-applicant” mean the person(s) who signed the application or whose
information was provided on the application for the card; the words “you,” “your” and “yours” mean the applicant and
co-applicant, if any, and any other person an applicant permits to use a card issued under the agreement; the words
“we,” “us” and “ours” refer to TruMark Financial Credit Union (TruMark Financial), its successors and assigns. The
word “card” means the VISA card or cards we issue under this agreement and Disclosure Statement. The word
“account,” unless the context clearly indicates otherwise, means the VISA credit card revolving line of credit account
established by this Agreement and Disclosure Statement.

2. ACTIVATING CARD, SIGNING CARD, AUTHORIZED USERS, ACCESS
a) In order to use the card you must first activate the card by calling the telephone number accompanying the card.
You must sign your name on the signature panel on the card. You should sign the card as soon as it is received to
protect you and us from any unauthorized use. Each person who uses a card with an Applicant’s permission is
also bound by this Agreement and Disclosure Statement. You should ensure that any other person you authorize
to use the account or a card has read and understood this Agreement and Disclosure Statement because you are
liable for their use of any card and any charges they incur on the account. Once you (including any permitted
user) use the card, this Agreement and Disclosure Statement will automatically become effective. It also will
become effective if you do not close your account within thirty (30) days from the date of your approval. By
using or authorizing the use of the account, any card, or any preprinted loan drafts we provide to you, or by
signing the back of the card or any preprinted loan drafts we provide to you, you agree to the terms of this
Agreement and Disclosure Statement. You also authorize us to obtain credit bureau reports in connection with
extensions of credit or the review or collection of your account. If you ask we will tell you the name and address
of each credit bureau from which we obtained a report about you.
b) You acknowledge and agree by signing up for Internet Teller and/or Touch Tone Teller that any person whom
you have authorized or will authorize to have rights in and to your account, such as a joint-owner, and/or any
person to whom you have allowed access to your password is deemed to be an authorized user (each person
sometimes being hereinafter referred to as an authorized user) with respect to Internet Teller and/or Touch Tone
Teller. An authorized user shall include joint members/owners presently on your membership account and joint
member/owners added in the future. Any such authorized user shall have the full right and ability to access your
account, including the ability to request a cash advance or other borrowing transaction through Internet Teller
and/or Touch Tone Teller, regardless of whether any such authorized user is a co-borrower or otherwise appears
on the account or applicable loan application. Transactions by any such authorized user will be considered
1

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

authorized transactions for which you and any co-borrower on will be jointly liable. For full definition of Internet
Teller, see our Internet Teller Agreement/Disclosure at www.trumarkonline.org
3. PURCHASES AND CASH ADVANCES.
a) You can use the card to purchase goods and services wherever the VISA card is honored. You may also make up
to four (4) ATM withdrawals (instant cash loans) totaling no more than $505 per day at any financial institution or
VISA automated teller machine.
b) You also may use the card to obtain cash advances, and you may obtain cash advances with loan drafts if we make
them available, all subject to the terms of this Agreement and Disclosure Statement. As used in this Agreement
and Disclosure Statement, cash advances includes loan checks drawn on your account, any overdrafts for your
checking or share draft account with us, other advances to you by any financial institution including us and
balance transfers. FINANCE CHARGES will accrue on each cash advance from the date it is posted to your
account.
c) You authorize us to make cash advances in order to pay insufficient funds and overdraft fees to your share
draft/checking account. Advances to pay insufficient funds and overdraft fees will be treated as cash advances.
d) You may not make a purchase or cash advance that will increase your account balance, including any accrued
FINANCE CHARGE or other fees, above the amount of your approved line of credit.
e) We are not responsible in any way for refusals by merchants or financial institutions to honor the card for
purchases or for cash advances, except as provided by applicable law and regulations. Cash refunds will not be
made to you by merchants honoring the card. Instead, the merchant will issue you a credit, which will appear on
your monthly statement. A description of that monthly statement appears below.
f) If you incur a charge in a foreign currency, the charge will be converted by VISA International into a U.S. dollar
amount. VISA International will use the procedures set forth in its Operating Regulations in effect at the time that
the transaction is processed. Currently, those regulations provide that the currency conversion rate to be used is
either:
1. a wholesale market rate or
2. a government-mandated rate in effect one day prior to the processing date, increased by an international
reimbursement rate of one percent (1%) in each case.
The currency conversion rate in effect on the processing date may differ from the rate in effect on the transaction date
or the posting date.
4. LOAN DRAFTS
a) If we approve, you may obtain advances under your account by writing preprinted loan drafts that we supply to
you. We do not require that loan drafts be in minimum amounts. Your use of a loan draft will be treated as a cash
advance, with FINANCE CHARGES accruing from the date the draft is posted to your account, and will be
shown as a cash advance on your monthly statement. We may refuse to pay your loan draft for any of the
following reasons:
 if it is postdated,
 if payment of the draft will exceed your credit limit,
 if it is signed by a person without authorized access,
 if your credit privileges under the account have been terminated or suspended for any reason, or
 if any drafts have been reported lost or stolen.
b) Our liability for a wrongful dishonor is limited to your actual losses; however, a dishonor for the reasons stated
above is not a wrongful dishonor.
a. We will charge you the following FEES related to loan drafts: Up to $32 for each stop payment request, a
stop payment request on a series of checks, or each loan check, negotiable order of withdrawal, or draft that we
must return to the presenter for any reason; for example, because it would draw on your account over your credit
limit or if your account has been closed.
2

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

c) You may stop payment on a loan draft by calling us or writing us at the telephone number or address shown in the
paragraph below titled, “How to Contact Us.” You must provide us with the check number, dollar amount, and
payee exactly as they appear on the loan draft. If you give us incorrect information, we will not be responsible for
failing to stop payment. We also will not be responsible to honor the stop order unless you give it to us in the
manner described in this Agreement and Disclosure Statement and at such time as to afford us a reasonable
opportunity to act on it before we have paid the loan draft. If you contact us by telephone, your stop payment
order will only be good for 14 calendar days unless before the end of that period you give us the stop payment
order in writing. A written stop payment request expires six (6) months after the date we accept your stop
payment order unless you renew it in writing within two (2) weeks prior to the end of that period.
d) If you post-date a loan draft, we may honor the loan draft immediately upon presentment or return it unpaid, at our
election, without in either case waiting until the date shown on the loan draft. We are not liable to you for any loss
or expense incurred by you arising out of the action we elect to take.
5. GRACE PERIOD
The grace period on purchases is 28 days, meaning that no FINANCE CHARGE will be imposed on new purchases
if they are paid in full within 28 days after the close of the monthly billing period. There is no grace period for cash
advances. FINANCE CHARGES begin to accrue on a cash advance on the date it is posted to your account; and
must be paid even if you pay the entire balance on the account in full by the payment due date.
6. REPAYMENT
a) You must pay us in United States dollars, all amounts charged and borrowed by the use of the card together
with FINANCE CHARGES and any other charges and fees provided for in this Agreement and Disclosure
Statement.
b) Payments may be made in cash, in-person at TruMark Financial’s offices or branches, electronic funds
transfers, or by check or other negotiable instrument payable to TruMark Financial if payable at a domestic
financial institution or a domestic office of a foreign financial institution. Payments made through the mail in
the form of cash, third party checks, or other negotiable instruments are not accepted.
c) You may not use a loan draft or any other cash advance to make a payment under this Agreement and
Disclosure Statement, or any other credit account you may have with us.
d) In accordance with applicable law, we will apply your payment to your indebtedness to us at the time the
payment is made. Any payment you make in excess of any required minimum payment will not affect your
obligation to make future required minimum payments calculated in accordance with this Agreement and
Disclosure Statement, so long as any balance is outstanding.
e) Payments received by 5:00 p.m. on any business day will be credited on that day. If a payment is received
after 5:00 p.m. or on a non-business day the payment will be credited on the next business day.
f) We may accept late payments, partial payments, or checks, money orders, other negotiable instruments or
payments marked “Payment in full” without losing any of our rights under this Agreement and Disclosure
Statement.
7. REQUIRED MINIMUM PAYMENT
You may pay your account balance in full at any time without penalty. If you do not wish to pay the total new balance
outstanding for both cash advances and purchases, you must pay at least the required minimum payment by the
payment due date to avoid being in default.
The required minimum payment is based on the total of your outstanding VISA account balance, finance and other
applicable charges, and any additional amount past due at the end of each billing period. The required minimum
payment is the total of:



3

2.25% of your new balance (as defined below), but not less than a minimum amount of $25.
PLUS, any amount you owe in excess of your credit limit
TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

To determine your new balance, we take the outstanding balance on your account at the beginning of the billing period, add
any new purchases and cash advances, subtract any new payments and credits received, make any required adjustments (for
example, corrections of prior miscalculations), and add applicable FINANCE CHARGES and fees.

8. MONTHLY STATEMENT
We will send you a statement at the end of each monthly billing period. The statement will set out the following
information:
a) The account balance at the end of the last prior billing period
b) Any payments received by us during the billing period
c) Any other debits or credits to your account made by or received by us during the billing period
d) All of your purchases and cash advances received by us during the billing period
e) FINANCE CHARGES and fees, if any
f) Any adjustments
g) The new account balance
h) The required minimum payment required under this agreement
i) The date that your payment is due
j) The periodic rate for the billing period
k) The ANNUAL PERCENTAGE RATE
l) Toll-free telephone number, internet address and website to obtain payoff information
m) Examples of length of time to payoff balance when making a minimum payment only
n) Current and year-to-date fee totals
9. PERIODIC RATES AND CALCULATION OF FINANCE CHARGES
(a) Cash Advances (including Balance Transfers).
Introductory Rate
On Platinum Visa cards and Rewards Visa cards, for an introductory period after you receive your credit card (the “Cash
Advance Introductory Period”), the ANNUAL PERCENTAGE RATE for cash advances (including balance transfers)
will be a lower rate than the PERMANENT ANNUAL PERCENTAGE RATE. After the introductory
period, the PERMANENT ANNUAL PERCENTAGE RATE will apply to all cash advances (including balance
transfers), including those posted during the introductory period. A description of the cash advance introductory period
and a disclosure of the INTRODUCTORY ANNUAL PERCENTAGE RATE and the PERMANENT ANNUAL
PERCENTAGE RATE for cash advances are contained in the Disclosure Table that accompanies this Agreement and
Disclosure Statement. The Disclosure Table is made part of this Agreement and Disclosure Statement, and you should
keep a copy with this Agreement and Disclosure Statement.
Permanent Rates
After any cash advance introductory period, the ANNUAL PERCENTAGE RATE applicable to cash advances
(including balance transfers) will become a variable rate that will be adjusted monthly and will be the sum of an index
plus a margin. The index will be an annual rate equal to the highest prime rate published in the money rates section of
The Wall Street Journal (Eastern Print Edition) on the first day of each calendar month of each year; or if The Wall
Street Journal does not publish the prime rate on the first day of a calendar month, the highest rate most recently
published as the prime rate in The Wall Street Journal (Eastern Print Edition) before that date. If the index increases at the
beginning of any month, your ANNUAL PERCENTAGE RATE and monthly periodic rate will increase for the
monthly billing period beginning on or after that date. The ANNUAL PERCENTAGE RATE may not increase above
18.00% (a monthly periodic rate of 1.50%). If the ANNUAL PERCENTAGE RATE increases, your monthly payments
and minimum payment will increase and it will take you longer to pay what you owe. The margin will be 4.99% to
13.74% per year, depending on our review of your application and credit history.
4

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

Calculating FINANCE CHARGE on Cash Advances
A FINANCE CHARGE is imposed on a cash advance from the date the cash advance is made until the date it is fully
paid. We calculate the FINANCE CHARGE on cash advances by applying a monthly periodic rate corresponding to
the applicable ANNUAL PERCENTAGE RATE to the applicable portion of the cash advance average daily
balance. To get the cash advance average daily balance, we take the beginning unpaid balance of cash advances each
day, (excluding the billing date of the previous cycle and including the billing date of the current cycle), add any new
cash advances and subtract any payments or credits. When we subtract any payments or credits, we apply them first
against other fees and charges you owe us, then against unpaid FINANCE CHARGES. After paying all fees,
charges and FINANCE CHARGES, we apply any remaining payments and credits to your outstanding balances of
cash advances. This gives us the daily cash advance balance. We then add up all of these daily cash advance balances
for the monthly billing period and divide the total by the number of days in the monthly billing period. This gives us
the cash advance average daily balance. The monthly periodic rate for cash advances is determined by dividing the
ANNUAL PERCENTAGE RATE (APR) by 12.
(b) Purchase
Introductory Rate
On Platinum Visa cards and Rewards Visa cards, for an introductory period after you receive your credit card (the
“Purchases Introductory Period”), the ANNUAL PERCENTAGE RATE for purchases will be a lower rate than the
PERMANENT ANNUAL PERCENTAGE RATE. After the introductory period, the PERMANENT ANNUAL
PERCENTAGE RATE will apply to all purchases, including those posted during the introductory period. A
description of the Purchases introductory period and a disclosure of the INTRODUCTORY ANNUAL
PERCENTAGE RATE and the PERMANENT ANNUAL PERCENTAGE RATE for purchases are contained in
the Disclosure Table.
Permanent Rates
After any purchase introductory period, the ANNUAL PERCENTAGE RATE applicable to purchases will become
a variable rate that will be adjusted monthly and will be the sum of an index plus a margin. The index will be an
annual rate equal to the highest prime rate published in the money rates section of The Wall Street Journal (Eastern
Print Edition) on the first day of each calendar month of each year (or if The Wall Street Journal does not publish the
prime rate on the first day of a calendar month, the highest rate most recently published as the prime rate in The Wall
Street Journal (Eastern Print Edition) before that date). If the Index increases at the beginning of any month, your
ANNUAL PERCENTAGE RATE and monthly periodic rate will increase for the monthly billing period that begins
on or after that date. The ANNUAL PERCENTAGE RATE may not increase above 18.00% (a monthly periodic rate
of 1.50%). If the ANNUAL PERCENTAGE RATE increases, your monthly payments and minimum payment will
increase and it will take you longer to pay what you owe in full. The margin will be 4.99% to 13.74% per year,
depending on our review of your application and credit history.
Calculating FINANCE CHARGE on Purchases
No FINANCE CHARGE will be charged on new purchases if you pay your entire new balance shown on your
monthly statement by the payment due date shown on the statement (28 days after the close of the monthly billing
period covered by your monthly statement showing the new purchases). If you do not pay your entire new balance by
the payment due date, a FINANCE CHARGE will be imposed on each new purchase from the date of the purchase.
FINANCE CHARGES will continue to accrue on purchases until we receive payment of the total balance of
purchases. We figure the FINANCE CHARGE on purchases by applying a monthly periodic rate corresponding to
the applicable ANNUAL PERCENTAGE RATE to the “Purchase Average Daily Balance.” To get the purchase
average daily balance, we take the beginning balance of purchases each day (excluding the billing date of the previous
cycle and including the billing date of the current cycle), add any new purchases, and subtract any payments or credits.
When we subtract any payments or credits, we apply them first against other fees and charges you owe us, then against
unpaid FINANCE CHARGES. After paying all fees, charges and FINANCE CHARGES, we apply any remaining
payments and credits to your outstanding balances of purchases. This gives us the daily balance of purchases. Then we
5

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

add up all the daily balances of purchases for the monthly billing period and divide the total by the number of days in
the monthly billing period. This gives us the Purchase Average Daily Balance. The monthly periodic rate for
purchases is determined by dividing the ANNUAL PERCENTAGE RATE (APR) by 12.
Once we have calculated the FINANCE CHARGES on cash advances as described above, and the FINANCE
CHARGES on purchases as described above, we total those results to get your total FINANCE CHARGES for a
monthly billing period.
The ANNUAL PERCENTAGE RATE will not at any time exceed 18.00% per year, or, if lower, the highest
allowable rate for this type of agreement as determined by applicable Federal or State Law.
(c) You may obtain our current periodic rates by calling TruMark Financial at (215) 953-5353 or
by visiting TruMark Financial’s website at www.trumarkonline.org.

10. JOINT ACCOUNT
If a VISA card is issued for a joint account, each of you will be jointly and severally liable under the terms of this
Agreement and Disclosure Statement.

11. SECURED VISA
If the terms of the account application requires collateral, you will be required to pledge from a share account with
TruMark Financial, 100% of the approved credit limit. This is more fully described in the Assignment of Deposit
Agreement which you will be required to execute in order to be approved for an account.

12. RULES AFFECTING YOUNG CONSUMERS
We will not open a credit card account for any member less than 21 years of age unless the member has submitted an
application with the following:
a) Financial information indicating he/she has an independent ability to make the required minimum periodic
payments on the extension of credit in connection with the account, OR
b) A signed agreement of a cosigner, guarantor, or joint applicant who is at least 21 years of age to be either
secondary liable for any debt on the account incurred by the member before the member has attained the age
of 21; or jointly liable with the member for any debt on the account, AND
c) Financial information indicating such cosigner, guarantor, or joint applicant has the ability to make the
required minimum periodic payments on such debts, consistent with the agreement and disclosure statement
of the account.
After a credit card account has been opened to any member less than 21 years of age in accordance with the above, no
increase in the credit limit will be made on such account before the member attains the age of 21 unless the cosigner,
guarantor, or the joint account holder (who has assumed liability) at the account opening, agrees in writing, to assume
liability on the increase to the credit limit.

13. CREDIT LIMIT
We will set the credit limit on your account and may change it from time to time. If we change your credit limit, we
will notify you 45 days prior to any change. We may notify you of credit limit changes on your monthly statement.
The total amount outstanding on your account must always remain below the credit limit. If your unpaid balance ever
exceeds your credit limit, you agree to pay the excess on demand. Your initial credit limit is stated on the letter to you
indicating that you were approved for the card.

6

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

14. AUTHORIZATIONS
You agree that any purchase or cash advance may be subject to prior authorization by us or by a VISA authorization
center. Prior authorization may involve limitations on frequency or use of the VISA card or dollar limitations on
purchases or cash advances that are established for your protection.

15. LOST OR STOLEN CARD; LIABILITY FOR UNAUTHORIZED USE
Contact us at once if you believe your VISA card has been lost or stolen or you think someone has or may use it
without your permission. Do not use the card once you have notified us, even if you locate it. You may be liable for
the unauthorized use of your card. You will not be liable for unauthorized use that occurs after you notify TruMark
Financial at335 Commerce Drive, P.O. Box 8127, Fort Washington, PA 19034, (215) 953-5353, or 1-877TRUMARK, during normal business hours, weekdays, 8 a.m. to 8 p.m., Saturdays, 9 a.m. to 1 p.m., or Sundays 11
a.m. to 3 p.m. excluding holidays, or 1-888-822-2419 anytime outside normal business hours; orally or in writing, of
the loss, theft, or possible unauthorized use. In any case, your liability will not exceed $50.
16. OTHER FEES AND CHARGES
A $25 late payment FEE will be charged for payments on your Visa credit card received more than five (5) days after
the due date. One (1) late payment fee may be refunded for Smart Start credit cards only. We may charge you a $5 fee
for copies of any statements or other documents you request. A Foreign Transaction FEE of 2% of the amount of
your transaction in U.S. Dollars will be charged. A replacement credit card FEE of $5 will be charged to replace a credit
card. A replacement credit card FEE of $7 will be charged to replace a customized card with the same image. A
replacement credit card FEE of $9.95 will be charged to replace a customized card with a new image. There is an express
delivery FEE of $25 for expedited delivery of a replaced card. If research of any kind is completed on your account,
there will be a charge of $45 per hour. TruMark Financial may from time to time, upon such written notice to you as its
Board of Directors or applicable law may provide, impose any other charge or FEE. For full explanation of these fees
and charges, see our Service Fee Disclosure at www.trumarkonline.org.

17. DEFAULT
You will be in default if you fail to make a required minimum payment on time, exceed your credit limit, break one of
your promises under this agreement, have made a material misrepresentation to us in connection with this account,
you breach any other agreement you may have with us, or are delinquent on any other obligation to us. You will also
be in default if you die or become the subject of an insolvency, bankruptcy, or incompetency proceeding. If you are in
default, we can close your account and require immediate payment of your entire account balance.
If you have granted us a security interest in any individual and joint share and/or deposit accounts you have with us,
now and in the future, to secure what you owe under this Agreement and Disclosure Statement, as provided in a
separate assignment of deposit account, we may exercise certain rights after you default as described hereafter. When
you are in default of any of your obligations under this Agreement and Disclosure Statement as it is amended or
modified, you authorize us to apply the balance in these accounts to any amounts due under the account. Shares and
deposits in an Individual Retirement Account (IRA), and any other account that would lose special tax treatment under
state or Federal law, if given as security, are not subject to the security interest you have given in your shares and
deposits.
You will be responsible for paying all overdraft advances obtained by you or a joint holder of the share draft account.
In addition to the loan covered by this Agreement and Disclosure Statement, this Agreement and Disclosure Statement
secures all amounts you owe to lender, whether owed now or later. This means that every loan you have now or
obtain later with lender is secured by this Agreement and Disclosure Statement. This Agreement and Disclosure
Statement also secures all other amounts and obligations that you may owe to lender (such as an overdraft on a
checking account).
7

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

18. COLLECTION COSTS AND ATTORNEY FEES
If after a default we refer this account to a collection agency or an attorney, you will have to pay reasonable collection
or attorney fees plus any actual court or other costs paid to collect the amount you owe us.

19. DELAY IN ENFORCEMENT
We can delay enforcement of any of our rights under this Agreement and Disclosure Statement without losing them.

20. CLOSING YOUR ACCOUNT OR SUSPENDING ADVANCES
You may close your account at any time by notifying us in writing, returning the card cut in half and paying the full
account balance in accordance with the terms of this Agreement and Disclosure Statement. We may suspend your
card, loan draft or any other credit privileges under the account at any time without prior notice, for any reason. If we
close your account, we will mail or deliver a 45 day advance notice. If we close your account or suspend your credit
privileges, except to the extent required by law we will not be liable to you or anyone else for any outstanding card
charges or loan drafts we refuse to pay. Even if we close your account, you must still pay the account balance and any
additional FINANCE CHARGES. If we ask, you must return all cards and all unused loan drafts issued under this
Agreement and Disclosure Statement, cut in half. We may issue a different card or different loan draft forms at any
time without notice, and if we do so you agree to use only the new forms.

21. CHANGING TERMS OF AGREEMENT
We can change the terms of this Agreement and Disclosure Statement at any time. If we do so we will mail or
deliver to you a copy of these changes. We may give you written notice of changes in terms by printing it on your
monthly statement, including it with your monthly statement, or by sending you a separate notice. If by a separate
agreement you authorize or have authorized notices by electronic mail or other electronic means, we may send you
notice by those electronic means and such notices will be deemed written notices for purposes of this Agreement and
Disclosure Statement. When the change(s) become effective they will apply to the total balance of your account. If the
changes involve the circumstances under which the FINANCE CHARGE or any other fees will be imposed, any
increase in the FINANCE CHARGE or a change in the method of determining the FINANCE CHARGE or any
other charge, your billing error rights, or an increase in your minimum monthly payment, we will give you written
notice of the change at least 45 days before the monthly billing period in which the change becomes effective. Any
such change which involves an increase in the FINANCE CHARGE or the imposition or increase of any other fee or
charge will not apply to your account unless you (including any authorized user) use the card after the effective date
of such change. If you do not wish to accept the change you may return all card(s) to us cut in half and you can then
continue to pay the balance in your account under the terms of the Agreement and Disclosure Statement in effect
before the change.

22. PROHIBITED USES OF THE CARD AND ACCOUNT
You must not use the card or account
1) for any unlawful purpose, including the purchase of goods or services prohibited by the laws of the United
States or any other country where the card is used or where goods or services are provided;
2) if the card has been suspended or cancelled;
3) if the card is found after having been reported as lost or stolen; or
4) if a petition for bankruptcy is filed or if you do not honestly expect to be able to make the minimum required
repayment in full on receipt of your monthly statement.

8

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

23. CHANGE OF ADDRESS
If you move, you must give us your new address in writing. If you delay in notifying us of a new address, any notices
and statements we send to your old address before we have had a reasonable time to process any address change you
give us will still be valid, even if you do not receive them.
24. UPDATING & DISCLOSING FINANCIAL INFORMATION
You will provide facts to update information contained in your original account application or other financial
information related to you at our request. You also agree that we may, from time to time, as we deem necessary, make
inquiries pertaining to your employment, credit standing and financial responsibility in accordance with applicable
laws and regulations. You further agree that we may give information about the status and payment history of your
Account to consumer credit reporting agencies, and/or others who may properly receive such information.

25. ARBITRATION OF DISPUTES AND CLAIMS
EXCEPT AS SPECIFICALLY PROVIDED HEREIN, THIS ARBITRATION PROVISION SUBSTANTIALLY
LIMITS OR AFFECTS YOUR RIGHTS. PLEASE READ IT CAREFULLY. NEITHER PARTY WILL HAVE
THE RIGHT TO HAVE A JURY DECIDE ANY CLAIM OR DISPUTE AND THE ABILITY OF EACH PARTY
TO APPEAL IS LIMITED IN AN ARBITRATED MATTER. MOREOVER, NEITHER PARTY OR ANYONE
ACTING ON THEIR BEHALF CAN PURSUE A CLAIM OR DISPUTE IN A CLASS OR REPRESENTATIVE
ACTION.
Arbitration is a method of deciding disputes outside the court system. The parties agree and understand they choose
arbitration instead of litigation to resolve all claims and disputes not specifically excluded. This arbitration provision
(the “Arbitration Provision”) governs when and how any disputes you and we may have will be decided. All
disputes, claims, or controversies arising from or relating in any way to the agreements, relationships, accounts,
including any applications and prior relationships between you and us; the relationships which result or arise as a
result of this Agreement and Disclosure Statement; any rights, privileges or services you receive from us now or in
the future; any claims or disputes arising in any bankruptcy or other insolvency proceeding specifically involving the
parties' rights under their agreements, valuation of any collateral, the validity or enforceability of any security interest
(including any interest by way of cross-collateralization or a pledge of shares) or any ancillary proceedings that are
not exclusively within the jurisdiction of the United States Bankruptcy Courts; or the validity of this clause
(collectively, the “Applicable Agreements”), shall be resolved by binding arbitration by a single arbitrator chosen
with the consent of both parties. The arbitrator must be an attorney with more than 10 years’ experience or a retired
judge. If for any reason the parties do not consent to an arbitrator within 30 days from the date that notice of a claim
or intent to arbitrate is provided to the other party, then an arbitrator will be selected pursuant to the Rules of the
American Arbitration Association (the "AAA"). This arbitration provision is made pursuant to a transaction in
Interstate Commerce, and shall be governed by the Federal Arbitration Act (the "FAA") at 9 U.S.C. §1, et seq., as
amended from time to time. It is understood and agreed this Agreement and Disclosure Statement, your account, all
transactions related to your account, and any dispute defined herein shall involve Interstate Commerce. If any dispute
between us does not involve Interstate Commerce, such dispute shall be governed by the Arbitration Act for the State
set forth in this Agreement and Disclosure Statement, as amended from time to time, in which case all references to
the FAA herein shall be to said State Act. If the State has no Arbitration Act, then the parties will be governed by the
Rules of the American Arbitration Act in any matter not involving Interstate Commerce. The parties agree and
understand that the arbitrator shall have all power provided by the law and this arbitration provision to make and
enter findings of fact and determination of judgment based on the applicable agreements and applicable law,
including but not limited to, the rights of possession, off-set, property rights, money damages, declaratory relief, and
injunctive relief. No arbitrator shall have the jurisdiction or authority to add to, take from, nullify or modify, any of
the terms of the applicable agreements. The arbitrator shall be bound by the facts and evidence submitted to him or
her. Arbitration will be subject to the rules of procedure and evidence consistent with the Rules of the American
Arbitration Act, and the arbitrator will not apply federal or state rules. The decision of the arbitrator shall be final and
9

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

binding and may be enforced in accordance with the terms of either the Federal or applicable State Law, except for
any specific appeal right regarding a judgment under the FAA or a judgment in excess of $100,000. For these
judgments, any party may appeal to a three-arbitrator panel appointed by and under the rules of the AAA. The
decision of the panel will be by majority vote and will be final and binding except for any specific appeal right under
the FAA. All of the terms of this arbitration provision will apply to such three-arbitrator panel. Judgment upon the
award rendered may be entered in any court having jurisdiction.
THE PARTIES AGREE AND UNDERSTAND ALL DISPUTES (INCLUDING ALL LEGAL AND EQUITABLE
RIGHTS AND REMEDIES) ARISING UNDER CASE LAW, STATUTORY LAW, AND ALL OTHER LAWS
INCLUDING, BUT NOT LIMITED TO, ALL CONTRACT, TORT, REGULATORY, AND PROPERTY
DISPUTES WILL BE SUBJECT TO BINDING ARBITRATION IN ACCORD WITH THIS ARBITRATION
PROVISION.
Notwithstanding anything herein to the contrary, TruMark Financial retains an option to use judicial or non-judicial
relief to enforce a security agreement relating to any collateral pledged to secure the Applicable agreements between
the parties, to enforce all monetary obligations by you to TruMark Financial so long as there is no dispute, or to
foreclose on any collateral securing your obligations to us by way of replevin, claim and delivery, or otherwise. The
initiation and maintenance of an action for judicial relief in a court on the foregoing terms shall not constitute a
waiver of the right of any party to compel arbitration regarding any other dispute or remedy subject to arbitration in
this arbitration provision, including the filing of a counterclaim in a suit brought by TruMark Financial pursuant to
this provision.
Any arbitration proceeding will take place in the federal judicial circuit where you live. If you cannot afford to pay
the fees charged by the arbitrator or any panel for an appeal as provided herein, we will consider in our sole
discretion any reasonable written request by you for us to pay the fees. We will pay any fees or costs specifically
required by applicable law. However, each party must bear the expense of that party's attorneys, experts, and
witnesses, regardless of who wins the arbitration, except to the extent that applicable law specifically requires
otherwise. The rules of the AAA will be applied to any arbitration between the parties, except in the event of any
inconsistency between this arbitration provision and the rules of the AAA, in which case this arbitration provision
shall govern. Any costs we pay in order for you to bring a proceeding hereunder are subject to being awarded to us
upon a ruling or award by the arbitrator which is favorable to TruMark Financial. The AAA and other legal
assistance services may be able to refer you to legal assistance from government or non-profit organizations that
provide assistance to those who can show a financial need for such assistance.
26. SEVERABILITY
If any provision of this Agreement and Disclosure Statement is held invalid or unenforceable by any court of
competent jurisdiction, the other provisions hereof shall remain in full force and effect. Any provision of this
Agreement or Disclosure Statement held invalid or unenforceable only in part or degree will remain in full force and
effect to the extent not held invalid or unenforceable.
27. WHAT LAW APPLIES
This Agreement and Disclosure Statement is made in the Commonwealth of Pennsylvania and will be governed by
Pennsylvania law except in those instances where Federal Law controls.
28. HOW TO CONTACT US
You may contact us at the following address and phone number:

10

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

TruMark Financial Credit Union
335 Commerce Drive
P.O. Box 8127
Fort Washington, PA 19034
(215) 953-5353
29. YOUR BILLING RIGHTS
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE.
This notice contains important information about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
TruMark Financial Credit Union
335 Commerce Drive
P.O. Box 8127
Fort Washington, PA 19034
ATTN: Visa Department
In your letter, give us the following account information:




Your name and account number
Dollar Amount: The dollar amount of the suspected error; and
Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake

You must contact us:
 Within 60 days after the error appeared on your statement; and
 At least 3 business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong
You must notify us of any potential errors in writing. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Received Your Letter
When we received your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
 While you do not have to pay the amount in questions, you are responsible for the remainder of
your balance.
 We can apply any unpaid amount against your credit limit.
11

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question, any interest, or other

12

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15



fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if you do not pay the amount we
think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 for the amount
you question even if your bill is correct.

Your Rights If You Are Dissatisfied With your Credit Card Purchases
If you are dissatisfied with the goods or services you have purchased with your credit card and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase prices must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
at:
TruMark Financial Credit Union
335 Commerce Drive
P.O. Box 8127
Fort Washington, PA 19034
ATTN: Visa Department
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.

13

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

LOST OR STOLEN CARD
If your TruMark Financial VISA Card has been lost or stolen or an unauthorized transfer from your
account has occurred or may occur, please contact one of the following phone numbers:
(215) 953-5353 or 1-877-TRUMARK during normal business hours, weekdays, 8 a.m. to 8 p.m.,
Saturdays, 9 a.m. to 1 p.m., and Sunday’s 11 a.m. to 3 p.m.; excluding holidays, or 1-888-822-2419 outside
normal business hours. You may also confirm such information about your lost or stolen VISA Card by writing
to:
TruMark Financial Credit Union
335 Commerce Drive, P.O. Box 8127
Fort Washington, PA 19034
ATTN: Visa Department

14

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

Disclosure Table
Interest Rates and Interest Charge
Annual Percentage Rate*
(APR) to Purchases, Balance
Transfers, Convenience
checks, and Cash Advances
Platinum Visa:

The purchase APRs (other than the introductory APR) will vary with the market
based on the Prime Rate.

1.99% (introductory) until 6 months after we mail you your initial credit
card. After that your APR will be 8.49% to 15.49% depending on our
review of your application and credit worthiness. Permanent introductory rate will
apply to all charges on your account after six (6) months, even those charges
made during the introductory period.

Rewards and Smart Start Visa:

1.99% (introductory) until 6 months after we mail you your initial credit card.
After that your APR will be 9.24% to 16.24% depending on our
review of your application and credit worthiness. Permanent introductory rate will
apply to all charges on your account after six (6) months, even those charges
made during the introductory period

Visa Signature and
Cash Back Visa Signature:
Penalty APR and When it
Applies
Paying interest

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial
Protection Bureau

11.24% to 17.24% depending on our review of your

Your APR will be
application and credit worthiness.
None

Your due date is 28 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.
None
To learn more about the factors to consider when applying for our using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Transaction

Penalty Fees
 Late Payment
 Over-the-Credit Limit
 Returned Payment

15

None
None
None
2% of the amount of your transaction in U.S. Dollars.

$25 Charged 5 days after the due date **
N/A
$29

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

Other Fees
 Replacement Credit Card
 Customized Card:
Same Image:
New Image:
 Express delivery of card:
 Copies of Statements
 Stop Payment


$5
$7
$9.95
$25
$5
Up to $32 per request or series of checks.
$45 per hour

Research Fee

How We Will Calculate your Balance: We us a method called “average daily balance (including new purchases).” See
your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement and Disclosure Statement.
*For more details on how the ANNUAL PERCENTAGE RATE, “Index” and “Margin” are determined and the impact of any increase,
see the section of this Agreement titled, “Periodic Rates and Calculations of Finance Charges.”
** You are entitled to a one-time late payment forgiveness which be automatically credited to your account upon the assessment of
your first late fee. No further late fee forgiveness will be given.

16

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

This Guide to Benefit describes the benefit in effect as of 3/1/08. This benefit and description supersedes any prior benefit and
description you may have received earlier. Please read and retain for your records. Your eligibility is determined by the date
your financial institution enrolled your account in the benefit.

Your Visa Card Guide to Benefit
Auto Rental Collision Damage Waiver
For questions about your balance, call the customer service number on your Visa statement.

What is this benefit?
When certain terms and conditions are met, the Visa Auto Rental Collision Damage Waiver benefit (“Auto Rental CDW”)
provides—at no additional charge—reimbursement for damage due to collision or theft up to the actual cash value of most
rental vehicles. In your country of residence, this benefit is supplemental to, and excess of, any valid and collectible
insurance from any other source. We will reimburse only for that damage or theft not payable by any other party. Here are
answers to some commonly asked questions about the benefit.
Who is eligible?
You are eligible only if you are a valid cardholder whose name is embossed on an eligible U.S.-issued Visa card. Only
you as the primary renter of the vehicle and any additional drivers permitted by the auto rental agreement are covered.
What is covered?
Subject to the terms and conditions in this Guide to Benefit, Visa Auto Rental CDW reimburses you for the deductible
portion of your personal automobile insurance, valid administrative and loss-of use charges imposed by the rental car
company, as well as reasonable towing charges resulting from covered damage or theft of the rental vehicle while it is
your responsibility. If you do not have personal automobile insurance or any other insurance covering this loss, this benefit
reimburses you for the covered damage or theft as well as valid administrative and loss-of-use charges imposed by the auto
rental company and reasonable towing charges. Only vehicle rental periods that neither exceed nor are intended to 15
consecutive days within your country of residence or 31 consecutive days outside your country of residence are covered.
The benefit provides reimbursement up to the actual cash value of the vehicle as it was originally manufactured. Most
private passenger automobiles, minivans, and sport utility vehicles are eligible, but some restrictions may apply. Please
contact the Benefit Administrator to inquire about a specific vehicle.
Within your country of residence, this benefit supplements, and applies excess of, any valid and collectible
insurance or reimbursement from any source. This means that, subject to the terms and conditions of this Guide to
Benefit, Visa Auto Rental CDW applies to losses or expenses that are not covered by insurance or reimbursement.
Covered losses are:





Physical damage and/or theft of the covered rental vehicle
Valid loss-of-use charges imposed and substantiated by the auto rental company through a fleet utilization
log.
Reasonable and customary towing charges, due to a covered loss, to the nearest qualified repair facility.

How do I activate this benefit?
For the benefit to be in effect, you must:




17

Initiate and complete the entire rental transaction with your eligible Visa card, and
Decline the auto rental company’s collision damage waiver (CDW/LDW) option, or similar provision, if
offered by the auto rental company.

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

Helpful hints:




Check the rental vehicle for prior damage before leaving the rental lot.
Review the auto rental agreement carefully to make sure you are declining CDW/LDW and also to familiarize
yourself with the terms and conditions of the auto rental agreement.

What do I do if I have an accident or the rental vehicle is stolen?
Immediately call the Benefit Administrator at 1-800-VISA-911 to report the theft or damage regardless of whether
your liability has been established. If you are outside the United States, call collect at 0-410-581-9994. The Benefit
Administrator will answer any questions you or the rental agency may have and will then send you a claim form.
All incidents must be reported immediately following the theft or damage, but in no event later than forty-five (45)
days* following the date of the theft or damage. Furthermore, we reserve the right to deny any claim that contains
charges that would not have been included had the Benefit Administrator been notified before those expenses were
incurred. We therefore advise you to notify us immediately after any loss. You must make every reasonable effort to
protect the rental vehicle from damage or theft.
What is not covered?
Any obligation you assume under any agreement (other than the deductible under your personal auto policy).
























Any violation of the auto rental agreement or this benefit.
Injury of anyone or damage to anything inside or outside the rental vehicle.
Loss or theft of personal belongings.
Personal liability.
Expenses assumed, waived, or paid by the rental agency or its insurer.
Cost of any insurance or collision damage waiver offered by or purchased through the auto rental company.
Depreciation of the rental vehicle caused by loss or damage including, but not limited to “diminished value.”
Expenses reimbursable by your insurer, employer, or employer’s insurance.
Loss due to intentional acts, or due to the driver(s) being under the influence of alcohol, intoxicants, or drugs,
or due to contraband or illegal activities.
Wear and tear, gradual deterioration, or mechanical breakdown.
Items not installed by the original manufacturer.
Loss due to off-road operation of the rental vehicle.
Loss due to hostility of any kind (including, but not limited to, war, invasion, rebellion, or insurrection).
Confiscation by authorities.
Vehicles that do not meet the definition of covered vehicles.
Rental periods that either exceed or are intended to exceed 15 consecutive days within your country of
residence or 31 consecutive days outside your country of residence.
Leases and mini leases.
Loss or damage as a result of the cardholder’s lack of reasonable care in protecting the rental vehicle before
and after damage occurs (for example, leaving the vehicle running and unattended).
Losses reported more than 45 days* from the date of loss.
Losses for which a claim form has not been received within 90 days* from the date of loss.
Losses for which all required documentation has not been received within 365 days from the date of loss.
Losses from rental transactions which originated in Israel, Jamaica, the Republic of Ireland, or Northern
Ireland.

What if the auto rental company insists that I purchase the auto rental company’s auto insurance or collision
damage waiver?
Call the Benefit Administrator at 1-800-VISA-911 for help. If you are outside the United States, call collect at 0-410-5819994.
18

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

When and where do I have this benefit?
This benefit is available in the United States and most foreign countries. No benefit is provided for motor vehicles
rented in Israel, Jamaica, the Republic of Ireland, or Northern Ireland. Additionally, this benefit is not available
where precluded by law or in violation of the territory terms of the auto rental agreement or prohibited by individual
merchants. Because regulations vary outside the United States, we recommend you check with your auto rental
company and the Benefit Administrator before you travel to make sure Visa Auto Rental CDW will apply.
This benefit is in effect while the rental vehicle remains in your control or in the control of a person permitted to operate
the rental vehicle in accordance with the rental agreement between you and the auto rental company. This benefit
terminates when the auto rental company re-assumes control of the rental vehicle.
How does this benefit apply?
Within your country of residence, Visa Auto Rental CDW supplements, and applies excess of, any valid and collectible
insurance or reimbursement from any source. It does not duplicate insurance provided by or purchased through the auto
rental company; it will not pay for losses reimbursed by your own insurer, employer, employer’s insurance, or any other
valid and collectible insurance; however, it will pay for the outstanding deductible portion or other charges, including
valid administration and loss-of-use charges not covered by your applicable automobile insurance policy. Outside your
country of residence or if you do not have automobile insurance, this benefit is primary in those countries where it is
available, and in that case, you do not have to claim payment from any other source of insurance before receiving the
benefits.
What types of rental vehicles are not covered?
Excluded worldwide are: expensive, exotic, and antique automobiles; certain vans; vehicles that have an open cargo bed;
trucks; motorcycles, mopeds, and motorbikes; limousines; and recreational vehicles. Examples of excluded expensive or
exotic automobiles are the Aston Martin, Bentley, Bricklin, Daimler, DeLorean, Excalibur, Ferrari, Jensen, Lamborghini,
Lotus, Maserati, Porsche, and Rolls Royce. However, selected models of BMW, Mercedes-Benz, Cadillac, and Lincoln
are covered.
An antique automobile is defined as any vehicle over 20 years old or any vehicle that has not been manufactured for 10
years or more.
This benefit is provided for only those vans manufactured and designed to transport a maximum of eight (8) people and
which is used exclusively to transport people.
If you have any questions regarding a specific vehicle, call the Benefit Administrator at 1-800-VISA-911. If you are
outside the United States, call collect at 0-410-581-9994.
What do I need from the auto rental company in order to file a Visa Auto Rental CDW claim?
At the time of the damage or theft, or when you return the rental vehicle, immediately ask the auto rental company for:
A copy of the Accident Report Form and claim document, which should indicate the costs you are responsible for and any
amounts that have been paid toward the claim.
 A copy of the initial and final auto rental agreement(s).
 A copy of the repair estimate or itemized repair bill.
 Two (2) photographs of the damaged vehicle, if available.
 A police report, if obtainable.
How do I file a claim?
You, the cardholder, are responsible for reporting your claim to the Benefit Administrator immediately, but in no
event later than 45 days* from the date of theft or damage, or your claim may be denied. Notice to any other party
will not suffice. Furthermore, we reserve the right to deny any claim that contains charges that would not have been
included had the Benefit Administrator been notified before those expenses were incurred. We therefore advise you to
notify us immediately after any theft or damage.



Mail the following documentation to the Benefit Administrator:
The completed and signed Visa Auto Rental CDW Claim Form. Your completed claim form must be
postmarked within 90 days* of the date of the damage or theft, even if all other required documentation is
not yet available, or your claim may be denied.
19

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

A copy of your receipt or monthly billing statement as proof that the entire vehicle rental was charged and paid
for with your eligible Visa card.
 A statement from your insurance carrier (and/or your employer or employer’s insurance carrier, if applicable) or
other reimbursement showing the costs for which you are responsible and any amounts that have been paid
toward the claim. Or, if you have no applicable insurance or reimbursement, please provide a notarized statement
to that effect.
 A copy of the declaration page from your automobile insurance carrier.
 Enclose all the documents you received from the auto rental company:
 A copy of the Accident Report Form.
 A copy of the entire auto rental agreement(s).
 A copy of the repair estimate or itemized repair bill.
 Two (2) photographs of the damaged vehicle, if available.
 A police report, if obtainable.
 Any other documentation deemed necessary by the Benefit Administrator to substantiate the claim.
For faster filing, submit your claim online. It’s easy, convenient, and available at no extra cost to eligible Visa
cardholders. To submit your claim and learn more about Visa Auto Rental CDW go to the Visa Auto Rental CDW Claim
Center at www.visa.com/eclaims.
If you experience difficulty in obtaining all the required documents within 90 days* of the date of theft or damage,
just submit the claim form and any documentation you already have available. NOTE: All remaining documents
must be postmarked within 365 days of the date of theft or damage.
*Not applicable to residents of certain states.
Do I have to do anything else?
Usually not. Under normal circumstances, the claim will be paid within 15 days after the Visa Auto Rental CDW Benefit
Administrator has received all documentation necessary to fully substantiate your claim.
However, after the Benefit Administrator has paid your claim, all your rights and remedies against any party in respect of
this theft or damage will be transferred to the Benefit Administrator to the extent of the cost of payment made to you.
You must give the Benefit Administrator all assistance as may reasonably be required to secure all rights and remedies.
Additional Provisions for Auto Rental CDW:
You must make every effort that would be made by a reasonable and prudent person to protect the Rental Vehicle from
damage or theft. This provision will not be unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including, but not limited to, the cost of repair
services, no coverage shall exist for such claim and your benefits may be canceled. Each cardholder agrees that
representations regarding claims will be accurate and complete. Any and all relevant provisions shall be void in any case
of fraud, intentional concealment, or misrepresentation of material fact by the cardholder.
Once you report an occurrence, a claim file will be opened and shall remain open for six (6) months from the date of the
damage or theft. No payment will be made on a claim that is not completely substantiated in the manner required by the
Benefit Administrator within 12 months of the date of damage or theft.
No legal action for a claim may be brought against us until 60 days after we receive Proof of Loss. After the expiration of
three (3) years from the time written Proof of Loss was to be provided, no action shall be brought to recover on this
benefit. Further, no legal action may be brought against us unless all the terms of this Guide to Benefit have been
complied with fully.
This benefit is provided to eligible Visa cardholders at no additional cost. The terms and conditions contained in this
Guide to Benefit may be modified by subsequent endorsements. Modifications to the terms and conditions may be
20

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

provided via additional Guide to Benefit mailings, statement inserts, or statement messages. The benefit described in this
Guide to Benefit will not apply to Visa cardholders whose accounts have been suspended or canceled.
Termination dates may vary by financial institutions. Visa and/or your financial institution can cancel or non-renew the
benefit, and if we do, we will notify you at least 30 days in advance. This information is a description of the benefit
provided to you as a Visa cardholder. It is insured by Indemnity Insurance Company of North America.
For general questions regarding this benefit, call the Benefit Administrator at 1-800-VISA-911. If you are outside the
United States, call collect at 0-410-581-9994.

21

TruMark Financial Credit Union
VISA Agreement and Disclosure Statement
B-FS 25 12/15

